<html>
<title> - EXAMINING THE GLOBAL TERRORISM LANDSCAPE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                EXAMINING THE GLOBAL TERRORISM LANDSCAPE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                           Serial No. 116-29

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-133PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>                                  
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                            
                   
                   
                     Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                  THEODORE E. DEUTCH, Florida Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland	             BRIAN Mast, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California		     STEVEN WATKINS, Kansas

                 Casey Kustin, Staff Director 
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Soufan, Ali, Chief Executive Officer, The Soufan Group, Member, 
  Homeland Security Advisory Council.............................     8
Ramalingam, Vidhya, Founder, Moonshot CVE, Board Member, Life 
  After Hate.....................................................    22
Roggio, Bill, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    36

                                APPENDIX

Hearing Notice...................................................    57
Hearing Minutes..................................................    58
Hearing Attendance...............................................    59

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Representative Sherman.....    60

 
                EXAMINING THE GLOBAL TERRORISM LANDSCAPE

                        Tuesday, April 30, 2019

                        House of Representatives

                    Subcommittee on the Middle East,

               North Africa, and International Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:18 p.m., in 
Room 2172 Rayburn House Office Building, Hon. David Trone 
(vice-chairman of the subcommittee) presiding.
    Mr. Trone [presiding]. Welcome, everyone. The subcommittee 
is meeting today to hear testimony examining the global 
terrorism landscape. I thank our witnesses for appearing today.
    I now recognize myself for the purpose of making an opening 
statement. This is our first opportunity for this Congress to 
take a broader view of the terrorism landscape confronting the 
United States and the rest of the world.
    It has been 18 years after the attacks on 9/11, and we have 
seen some success with our counterterrorism policy. But we have 
also watched the universe enlarge with an unsettling number of 
terrorist groups and affiliates and offshoots.
    In an aggressive policy start under President Obama, and 
continuing under President Trump, we have successfully 
confronted the Islamic State in Iraq, Syria, to liberate the 
territory once occupied. However, we must remain vigilant. 
Simply because a group no longer controls territory does not 
mean ISIS has been defeated.
    ISIS fighters have scattered, but they are morphing into an 
insurgency in Iraq and Syria, where the group clearly feels 
emboldened enough that its leader, Abu Bakr al-Baghdadi, just 
appeared on video for the first time in 5 years to reassert his 
authority in the wake of the lost territory.
    ISIS is also sowing the seeds of terror elsewhere by 
inspiring, guiding, and directing its affiliates and individual 
extremists throughout the world. Consider the Easter bombings 
in Sri Lanka that killed over 250 people. ISIS has claimed 
credit for those attacks. Investigators believe that at least 
one of the suicide bombers that traveled to and trained in 
Raqqah and others may have traveled to Turkey, Syria, or Iraq.
    ISIS clearly has an ability to export terrorism to parts of 
the world beyond the Middle East. We cannot let our success in 
liberating territory from this group blind us to the 
significant challenges that remain. Of course, ISIS is not the 
only terrorist group out there. Al-Qaeda remains a potent, if 
decentralized, force for spreading fear and violence.
    It is incredibly disturbing that ISIS and al-Qaeda often 
compete against one another and against Iranian-backed terror 
organizations in many of the most fragile contexts worldwide. 
This interplay only fuels sectarian violence, radicalizes 
populations, and exacerbates intractable conflicts throughout 
the Middle East.
    No one excels at exploiting regional chaos quite like Iran. 
Iran has been on our list of State sponsors for terrorism for 
35 years. And, unfortunately, it has only expanded its support 
for terrorist organizations over that time.
    The congressional Research Service lists the Syrian regime 
of Bashar al-Assad, Houthi rebels in Yemen, Shia militias in 
Iraq, underground groups in Bahrain, and of course Hezbollah 
and Hamas, among the beneficiaries of Iran's terror patronage.
    Just earlier this month President Trump designated Iran's 
Islamic Revolutionary Guard Corps as a foreign terrorist 
organization. I do not dispute the threats the IRGC poses, but 
I would note the designation may carry consequences in terms of 
retaliatory measures against the United States and U.S. 
personnel overseas.
    We must be clear-eyed about the threats to the United 
States and our interests. This includes recognizing a rise in 
white nationalist terrorism that threatens democracy and human 
rights at home and abroad.
    I grieve with the congregants of the Chabad Synagogue in 
California, who suffered a tragic attack this weekend. We will 
continue to seek justice for the victims of the shooting at the 
Tree of Life Synagogue where my daughter was named. We cannot 
tolerate such acts of hate inside the United States or against 
our close allies like New Zealand where a gunman's killing 
spree targeted the faithful visiting two mosques during Friday 
prayers just 6 weeks ago.
    Far right plots against French President Emmanuel Macron 
and Spanish Prime Minister Pedro Sanchez highlight that 
terrorism is indeed diverse. We cannot be lulled into a false 
sense of security. We have to be prepared, strong, and agile--
counterterrorism strategy.
    The military has a role to play, but almost 2 decades after 
9/11 it is clear the problem does not have a military-only 
solution. We need to address the underlying risks of terrorism, 
and we must ensure that our counterterrorism efforts account 
for the complicated politics in regions like the Middle East, 
Africa, South and Southeast Asia.
    This requires investing in foreign aid and diplomacy, not 
cutting the budget for them. I know there is a strong 
bipartisan support on this committee for smart policies that 
build on both military and non-military assets and holistic 
approach.
    I look forward to hearing from our witnesses with their 
views on the threats posed by terrorism today and what the U.S. 
can do better to defend our citizens and our interests 
worldwide.
    I now recognize the ranking member for the purpose of 
making an opening statement.
    Mr. Wilson. Thank you, Congressman Trone, for chairing this 
important hearing. Since September 11, 2001, our country has 
been engaged in a long and persistent War on Terrorism. It is a 
generational battle against those that wish to threaten our way 
of life, our church liberties, and our freedoms. They target 
innocence simply because of who they are, what they believe, 
and the way they live their lives. The tragic attacks this past 
Easter Sunday in Sri Lanka that killed at least 253, including 
4 Americans, was a stark reminder of terrorism's global reach 
and deadly consequences.
    Eighteen years ago on that solemn Tuesday morning when the 
beating heart of our Nation was attacked by a group of al-Qaeda 
terrorists, we could not have possibly imagined the terrorist 
landscape today. Today al-Qaeda affiliates stretch from the 
western edges of North Africa all the way to Southeast Asia.
    Sadly, none of us could even fathom the possibility that 
al-Qaeda's Iraqi branch could spin off and form a full-blown 
terrorist State the size of Great Britain across Syria and 
Iraq.
    The inhuman brutality afflicted by ISIS on the people of 
Syria and Iraq, including Muslims, Christians, Yasidis, and 
others, was a reminder for all of us. We fight this enduring 
battle against terrorism and the perverted ideology that 
inspires it to protect our families from this kind of evil.
    Fortunately, ISIS no longer holds any territory, and its 
so-called Caliphate has been delegated to the dustbin of 
history. The battle has been won, but the war continues. The 
ISIS threat remains.
    According to the National Counterterrorism Center, 14,000 
ISIS fighters are still in Iraq and Syria. They remain armed 
and have continued to carry out attacks. ISIS's dangerous 
ideology remains a persistent and pernicious threat to the 
world peace, and hundreds of battle-tested foreign fighters 
heading home pose new challenges to authorities throughout the 
world.
    Notably, the conditions that led to the rise of ISIS in 
Iraq has not been completely changed, and the resurgence of 
ISIS 2.0 is a tragic likelihood. To complicate the landscape 
even further, Iran has earned the title of number 1 State 
sponsor of terrorism in the world by fostering a network of 
Shiite armed groups engaged in terrorism to achieve Tehran's 
designs.
    Their reach extends throughout the Middle East to countries 
like Lebanon, Syria, Iraq, Yemen, and Bahrain, but Iran's 
proxies are not limited to the Middle East. Its primary 
terrorist proxy, Hezbollah, is deeply entrenched in our own 
backyard in Latin America.
    If there is one thing the past 18 years have taught us it 
is that terrorism is a global threat. It is not just limited to 
one country or region. It is an international challenge that 
requires international responses. Terrorists thrive while we 
turn a blind eye, and they spawn and metastasize in ungoverned 
spaces until they are ready enough to reach our shores.
    Before 9/11, it was Afghanistan. Today Syria safe havens 
abound in areas of Libya, Yemen, Somalia, Pakistan, the 
southern Philippines, and even Colombia. There is no doubt that 
the threat has multiplied. Wherever safe havens exist, American 
families are at risk. That is why American leadership is 
necessary now, more than ever.
    We must work together with all of our friends and partners 
throughout the world to protect our values from those that seek 
to destroy them. We must not delude ourselves with dreams of 
quick strikes and missions accomplished. We must realize that 
to gain any measure of success we will have to be in this for 
the long haul. We must not make the mistakes of the past and 
think that we can run away from problems abroad.
    In conclusion, God bless our troops, and we will never 
forget September 11 and the Global War on Terrorism.
    With that, Congressman Trone, I yield back and look forward 
to hearing from our witnesses today.
    Mr. Trone. I will now recognize members of the subcommittee 
for 1-minute opening statements should they wish to make one.
    Mr. Sherman. Mr. Chairman?
    Mr. Trone. Mr. Sherman, you are recognized.
    Mr. Sherman. A decade ago, I was in this room chairing the 
subcommittee that dealt with international terrorism. I suspect 
decades from now they will be in this room talking about 
international terrorism. That does not mean we have lost, just 
because we cannot expunge international terrorism. As long as 
we are battling it and keeping it under control, our battles 
will not always be like World War II where there is an actual 
surrender of our enemies.
    The administration has properly designated the Iran 
Revolutionary Guard Corps as a terrorist organization. Press 
reports indicate they will soon designate the Muslim 
Brotherhood. That will raise some questions because there are 
so many organizations in the Muslim world influenced or 
inspired by the Muslim Brotherhood, including the governments 
of Turkey and Qatar.
    Venezuela's legal government is being thwarted by Maduro. 
Maduro is being aided by Iran.
    And, finally, as to crypto currencies, these are the 
plastic guns of currency. That is to say, the crypto currency 
can be used for some legitimate purpose, but its unique 
advantage is to help criminals, drug dealers, and terrorists. 
And Hamas has on their website how to make donations to Hamas 
using Bitcoin. It does America no good to see the dollar lose 
power and crypto currencies take their place and facilitate 
illegal transactions.
    I yield back.
    Mr. Trone. Thank you. I now recognize Mr. Chabot for 1 
minute.
    Mr. Chabot. Thank you, Mr. Chairman. And as Mr. Sherman 
mentioned, been a long time--had the honor to be a long-time 
serving member of this committee, and in fact chaired this 
committee when the Embassy attack in Benghazi took place.
    About a month prior to that, I had been with our 
Ambassador, Ambassador Stevens, for the better part of a day 
and a half in Tripoli. And we have made some progress in 
fighting terrorism over the years, but as Mr. Sherman said, we 
are not there yet, and it is going to take a long, long battle.
    And despite ISIS's territorial defeat, and our 18-year 
battle against al-Qaeda, both groups are still very dangerous. 
They have affiliates throughout the Middle East and Africa and 
Asia that threaten our allies and the security and stability of 
the respective regions.
    Iran also uses terrorism and terrorist proxies as weapons 
in its campaign to gain hegemony in the region, destabilize our 
allies, and ultimately, in their view, to try to destroy 
Israel, which is why the President was right in declaring the 
IRGC a terrorist organization.
    And, finally, Sri Lanka, on Easter Sunday, the holiest day 
of the year for Christians, radical Islamists attacked three 
Catholic churches and other targets, the death toll staggering, 
hundreds murdered. Sunday masses were canceled this weekend, 
and barbaric attacks like this must never happen, and we mourn 
with all the families of those innocent souls who died 
celebrating Jesus' resurrection.
    And I yield back.
    Mr. Trone. Without objection, all members may have 5 days 
to submit statements, questions, extraneous material for the 
record, subject to the length limitation in the rules.
    I will now introduce our witnesses. Mr. Ali Soufan is the 
chief executive officer of The Soufan Group, as well as a 
member of the Homeland Security Advisory Council. He is a 
former FBI supervisory special agent who investigated and 
supervised several international terrorism cases, including the 
U.S. Embassy bombing in East Africa, the attack on the USS 
Cole, and events surrounding 9/11.
    At the FBI, Mr. Soufan served on the Joint Terrorism Task 
Force, FBI New York office, and received numerous awards and 
commendations for his counterterrorism work. Welcome.
    Ms. Vidhya Ramalingam is the founder of Moonshot CVE, a 
company using technology to disrupt encountered violent 
extremism globally. She directs digital projects in over 25 
countries and oversees partnerships with tech companies to 
respond to violent extremism on their platforms, online 
intervention programs, to pull individuals out of violent 
movements and automated messaging to disrupt closed extremist 
forums.
    She has a decade of experience engaging directly with 
extremists and previously served as a senior fellow at the 
Institute of Strategic Dialogue and a senior research fellow at 
the U.S. Institute for Public Policy. Welcome.
    Mr. Bill Roggio is a senior fellow at the Foundation for 
Defense of Democracies and editor of the Foundation's Long War 
Journal, which provides original reporting and analysis of 
terrorism across the Middle East, North Africa, and beyond.
    Previously, Mr. Roggio was embedded, the U.S. Marine Corps, 
U.S. Army, and Iraqi forces in Iran, and with the Canadian Army 
in Afghanistan, and also served as a signalman and infantryman 
in the U.S. Army in the New Jersey National Guard.
    Thank you all for being here today. Let us remind the 
witnesses, limit your testimony to 5 minutes. Without 
objection, your prepared written statements will be made part 
of the hearing record.
    Thank you so much for being here today. Mr. Soufan, please 
begin.

 STATEMENT OF ALI SOUFAN, CHIEF EXECUTIVE OFFICER, THE SOUFAN 
            GROUP, MEMBER, HOMELAND SECURITY COUNCIL

    Mr. Soufan. Thank you, Vice Chairman Trone, Ranking Member 
Wilson, distinguished members. As you will hear from my 
statement, I believe that the current geopolitical dynamics in 
the Middle East are fueling global terrorism and contributing 
to instability throughout the region and beyond.
    My statement will address four fundamental issues. First, 
we must recognize the resilience of the ideology fueling 
transnational terrorist groups and helping them recruit across 
the globe.
    Second, sectarianism has become the geopolitical currency 
of the Middle East, and terrorist organizations have become 
experts at exploiting this reality for their own gain.
    Third, the Arab Spring has shifted the calculus of 
terrorist groups, especially al-Qaeda, which is playing the 
long game by focusing on coopting local conflicts to help 
achieve its goals and objectives.
    Fourth, the war in Syria has exposed the true nature of the 
struggle underlying the current rise of militant groups and 
non-State actors. After the devastating attacks of 9/11, we 
responded swiftly. We have enjoyed numerous tactical victories 
since then, yet for all of these successes we have experienced 
the strategic failure of truly understanding why the ideology 
that organizations like al-Qaeda spread across the world is so 
resilient.
    Even today the Caliphate may have been defeated in the 
physical sense. But the dynamics that allowed the so-called 
Islamic State to exist in the first place continue to endure.
    Sectarianism has long figured in the modern Middle East 
power struggles, but its importance has grown with Iraq's 
transition to a Shia-led government and other regional 
conflicts, especially in Syria and Yemen.
    Unfortunately, sectarianism has become primary tool for 
competing States to solidify power and support. Principally, I 
am speaking about the struggle for regional hegemony between 
Saudi Arabia and Iran, which has prolonged already-bloody 
conflicts and lent them a vicious sectarian edge.
    Although both Saudi Arabia and Iran heavily employ the 
tactic of sectarianism, their strategies are widely different 
in both execution and success. My written statement goes into 
great detail of these dynamics.
    The Arab Spring represented a key moment to the rise of 
militant groups and non-State actors. Even bin Laden, just 
before his demise, nearly 8 years to the day today, instructed 
his organization to move away from strictly targeting the West 
and to begin exploiting local power vacuums that followed the 
collapse of the various Arab regimes.
    With that, bin Laden was able to rewrite the global jihadi 
narrative from a regional perspective, a narrative that has 
local roots but global aspirations. This local strategy is now 
as much a part of the agenda of terrorist groups as are the 
acts of terrorism aimed to dismantle the world order led by the 
United States.
    Of all the Arab Spring revolutions, perhaps the most 
complicated is Syria. The war in Syria has exposed the true 
nature of the struggle underlying the current instability in 
the region. One glance at the Middle East suggests that the 
region has reverted to an intercivilizational conflict. Sunnis 
fight Shia, Persians battle Arabs, Turks struggle with Kurds.
    The war in Syria also caused a refugee crisis without 
precedence, which, coupled with the rise of identity politics 
in Europe, gave oxygen to another transnational violence 
movement that is unfolding in front of our very eyes, radical 
right wing terrorism. These two dangerous networks feed off 
each other. When a jihadi commits a terrorist attack, it 
benefits the right wing terrorist. And when the right wing 
terrorist commits an attack, it benefits the jihadi.
    It is my hope that I have managed to demonstrate that 
terrorism does not succeed or fail in a vacuum, and that the 
terrorist landscape of today operates at a larger strategic 
context. The resilience of the ideology, coupled with 
sectarianism and prolonged conflict across the Middle East due 
to geopolitical power rivalry, is what has given rise to what 
we are witnessing today.
    My written statement includes numerous examples of the 
talking points I have highlighted here this afternoon, and I 
look forward for answering questions from the subcommittee. 
Thank you for the privilege and for the opportunity to be here 
with you today.
    [The prepared statement of Mr. Soufan follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Trone. Thank you very much.
    Ms. Ramalingam.

 STATEMENT OF VIDHYA RAMALINGAM, FOUNDER, MOONSHOT CVE, BOARD 
                    MEMBER, LIFE AFTER HATE

    Ms. Ramalingam. Chairman Trone, Ranking Member Wilson, 
members of the subcommittee, thank you for the opportunity to 
appear before you today.
    My name is Vidhya Ramalingam, and throughout my career I 
have worked to understand and deter individuals from white 
nationalist extremism and terrorism. Ten years ago, I moved to 
Europe to undertake a mission to meet with white nationalism 
extremists in Scandinavia. When a white nationalist terrorist 
murdered 77 people in Norway, I led the European Union's first 
intergovernmental initiative on this form of violence.
    Today, I appear before this subcommittee as founder of 
Moonshot CVE. Our mission is to end violent extremism globally. 
We work regularly with the U.S. State Department to disrupt 
encountered terrorist networks online, and my team and I have 
supported the Global Coalition Against Daesh, deployed programs 
to undermine Boko Haram recruitment in Nigeria, and have worked 
to prevent al-Qaeda affiliates from recruiting in Southeast 
Asia.
    We deliver programs to counter radicalization to white 
nationalist terrorism globally. White nationalist terrorism 
poses both a domestic and a global terror threat to the United 
States and its allies. It is dedicated to the overthrow of 
democratic governance and destruction of values intrinsic to 
the American way of life.
    It is an ideology based on the notion that the white race 
is threatened with extinction, the dehumanization of other 
races, and conspiracy theories that position particular ethnic 
and religious groups as enemies.
    Instances of this form of terrorism are increasing across 
the globe. Norway saw the deadliest of these attacks in recent 
history when a terrorist murdered 77 people in twin attacks on 
government buildings and on the island of Utoya in 2011. And in 
March this year we saw attacks by a terrorist on two mosques 
left 50 people dead in Christchurch, New Zealand.
    These movements have encouraged a dangerous strategy of 
leaderless resistance where individuals operate independently 
from one another and carry out violence to serve white national 
extremist interests. This is not dissimilar from the tactics 
adopted by ISIS and affiliated groups, which have encouraged 
so-called lone wolves to independently carry out low-tech acts 
of terror across the globe.
    Mirroring ISIS, white nationalist terrorists have adopted 
the term ``white jihad'' and have increasingly chosen low-tech 
methods of violence, including vehicular attacks.
    White nationalist fighters and ideologues increasingly move 
across borders. The perpetrator of the New Zealand attack was 
an Australian citizen who traveled across borders to carry out 
his attack. The ongoing conflict in Ukraine has drawn white 
national foreign fighters from dozens of countries at an 
unprecedented scale.
    In the past several years, we have seen these terrorists 
themselves become dangerous international ideologues and hate 
preachers. Norwegian terrorist Anders Behring Breivik and New 
Zealand terrorist Brenton Tarrant published their own 
manifestos, which served to inspire others to act.
    On Saturday, a synagogue in Poway, California, was attacked 
by a gunman. A manifesto suspected to have been posted by the 
gunman claims that he drew direct inspiration from the New 
Zealand attack. This, once again, highlights that the global 
white nationalist terrorist threat is directly inspiring 
violence here in the United States.
    Tarrant also pioneered a new communications tactic--live 
streaming a video of his massacre to the world using Facebook 
Live. This turned the attack into a powerful piece of digital 
propaganda itself, with millions of internet users watching 
globally.
    The internet did not create this global movement, but it 
has supercharged its evolution. Adopting increasing 
decentralized structures, these movements may not be as deadly 
as ISIS, but they share with it many of its characteristics.
    My written testimony includes a range of strategic 
priorities to aid the fight against white nationalist 
terrorism, and I will mention just a few here. The fight 
against terrorism will be significantly enhanced by the 
designation of key individuals and groups whom we know to be 
behind acts of white nationalist terror as specially designated 
global terrorists.
    We encourage greater collaboration between governments and 
the private sector to move beyond simply content removal and 
deliver proactive strategic communications campaigns to counter 
the terrorist threat.
    We have partnered with Google to repurpose advertising 
technology to reach terrorists with content which discredits 
these ideologies and offers alternatives. This method has now 
been delivered globally, together with governments and the 
private sector, including actors, such as the Gen Next 
Foundation here in the United States, in the fight against 
ISIS.
    Today we are working to use this technology to change 
behavior of white nationalist terrorists online. We encourage 
this subcommittee to see white nationalist terrorism as part of 
the full spectrum of terror threats facing the United States 
and its allies.
    Thank you for the opportunity to discuss this with you.
    [The prepared statement of Ms. Ramalingam follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Trone. Thank you very much.
    Mr. Roggio.

STATEMENT OF BILL ROGGIO, SENIOR FELLOW, FOUNDATION FOR DEFENSE 
                         OF DEMOCRACIES

    Mr. Roggio. Chairman Trone, Ranking Member Wilson, and 
members of the subcommittee, I thank you for the opportunity to 
testify before you today.
    The Easter day suicide attacks in Sri Lanka were a stark 
reminder that this war is far from over. We face a brutal and 
uncaring enemy that is committed to its cause and believes it 
is justified in killing civilians in churches and hotels. The 
Sri Lankan attacks were claimed by a local group that swore 
allegiance to the Islamic State, and it coordinated the release 
of its propaganda with the Islamic State. Authorities are now 
beginning to unearth international ties between the two.
    In this war, we have been too quick to declare our enemies 
defeated. In late March, the Trump administration touted the 
Islamic State's loss of its last vestige of territory in Syria. 
The Islamic State may have gone to ground now, but it has by no 
means been defeated.
    The Islamic State has been down this path before. After the 
U.S. surge in Iraq, its predecessor, the Islamic State in Iraq, 
which was an al-Qaeda affiliate, regrouped and warred back to 
retake large areas of Iraq and Syria just 3 years later.
    This problem is by no means limited to the Trump 
administration. The Obama Administration as quick to declare 
the defeat of al-Qaeda after killing Osama bin Laden in 
Pakistan, yet his deputy, Ayman al-Zawahiri, who was second in 
command on the day of 9/11, remains alive and directs multiple 
branches that operate across--operate active insurgencies 
across three continents.
    The jihadist threat has expanded since 9/11. Prior to 9/11, 
al-Qaeda operated openly in Afghanistan, alongside the Taliban, 
and had cells and small units scattered across several 
countries. Today it manages full-fledged insurgencies in Yemen, 
Syria, Northeast and West Africa, and South Asia, including in 
Afghanistan where it continues to fight alongside the Taliban.
    Some analysts seek to disconnect local jihadist 
insurgencies from international terrorist attacks, but this is 
a mistake. The local insurgencies in international terrorist 
attacks feed off of each other. The insurgencies give foreign 
fighters combat experience, training, network, and ideological 
reinforcement.
    International attacks provide propaganda and entice 
Westerners to conduct attacks at home or emigrate to wage 
jihad. At least one of the Sri Lankan suicide bombers is known 
to have traveled to Syria and likely provided key knowledge to 
execute those deadly attacks.
    Al-Qaeda used to have a monopoly on the jihad, but no more. 
The Islamic State, which rose out of a dispute between al-
Qaeda's cadres in Iraq and Syria, is now in direct competition 
with al-Qaeda. These two groups share the same goal: they wish 
to reestablish a global Caliphate and impose its harsh version 
of Sharia or Islamic law.
    Where they differ is how to achieve these goals. The 
Islamic State wants its Caliphate now and ruthlessly attacks 
any who refuse to swear allegiance to its emir. Al-Qaeda's 
approach is far more patient and subtle. It is willing to work 
with local Islamist groups and believes the Caliphate should 
only be declared when it can be properly defended.
    Iran, which alongside Pakistan are the biggest State 
sponsors of terrorism, also seeks to establish an Islamic 
State. It backs loyal militias in Iraq, Syria, Lebanon, and 
Yemen. These militias are organized and trained along the same 
lines as Hezbollah. The long-term impact of these militias is 
still not fully understood, and they have a far greater 
recruiting base than Hezbollah had to recruit from inside 
Lebanon.
    While Iran primarily backs Shia groups, it has openly 
battled the Islamic State in Iraq and Syria. It is not opposed 
to forming alliances with Sunni jihadists. Al-Qaeda maintains a 
network in Iran, and key leaders shelter there. This secret 
deal was documented by the U.S. Treasury Department in 2011 and 
several times since.
    Pakistan also continues to harbor numerous terrorist groups 
and uses them as a tool of its foreign policy. Its support for 
the Taliban has been unwavering and is leading us to defeat in 
Afghanistan. I would argue that we have already lost 
Afghanistan. We are merely attempting to negotiate the terms of 
our exit.
    Pakistan continues to sponsor terrorist groups that launch 
deadly attacks in India. It has paid no price for its perfidy.
    As our enemies have expanded their base of operations and 
remain committed to the fight, our will has faltered. We seek 
to disengage from the battle fronts, giving our enemies easy 
victories. This is a long war and commitment is key. If we hope 
to end this threat, we must renew our commitment and present a 
united front. We must rethink our goals and strategy and 
recognize our enemy's goals and strategy.
    We have to figure out a way to effectively fight our 
enemies, both in the military sphere and the sphere of ideas. 
We must continue to combat State sponsors of terror and make 
hard decisions about countries such as Pakistan.
    We have to work with our allies to figure out what to do 
with the numerous detainees captured in Iraq and Syria. There 
are thousands of foreign fighters there, and their families, 
who are citizens of Western countries. Some remain unrepentant 
yet want to return home.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Roggio follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Trone. Thank you for your testimony.
    We will now move to member questions under the 5-minute 
rule. I will begin, followed by Ranking Member Wilson, and we 
will then alternate between the parties. I recognize myself for 
5 minutes.
    I would like to discuss the interplay between technology 
and the terrorist threats. Terrorist groups like ISIS have been 
incredibly effective at exploiting online resources to recruit, 
radicalize, spread messages and propaganda, plan attacks at 
various locations across the globe.
    Ms. Ramalingam, how has the use of technology for conduct 
of terrorist operations evolved in the last few years? And 
then, also, what technology can we use, should we be using, to 
beat them at their own game?
    Ms. Ramalingam. Thank you, Chairman Trone. That is an 
incredibly important question. White nationalist extremists 
were early adopters of the internet. They were using online 
bulletins going back to the late 1980's and the early 1990's. 
But what we have seen is that changes in advancements to social 
media availability and technology has allowed them to recruit 
and radicalize at unprecedented rates.
    What we are seeing is that they are increasingly active not 
only on very mainstream, widely used platforms, like Facebook, 
Twitter, and YouTube, but also on more niche platforms, like 
8chan, 4chan, and even using encrypted platforms, like WhatsApp 
and Telegram to coordinate amongst them.
    We have even seen the use of technology before and during 
attacks used to incite others to carry out acts of violence, 
and their content remains increasingly accessible. You know, my 
company has been tracking the use of Google and Yahoo and Bing 
to access terrorist content over the last 7 years, and what we 
find is that individuals are consuming white nationalist 
extremist content in the West at rates that far exceed those 
that are consuming jihadist content on those platforms.
    Now, the use of technology can also be used against these 
groups. We need to see technology not just as a barrier to 
counterterrorism efforts, but we need to work through ways that 
we can develop new technology to automate the identification 
process of these individuals online, to directly interact with 
them online, to offer them alternatives, and that is where 
using even publicly available technologies like advertising can 
be important, but also to directly intervene online, to try and 
disrupt/start conversations with individuals, and get them out 
of movements.
    Mr. Trone. Mr. Soufan, it is clear that terrorist networks 
from across the ideological spectrum are adept at exploding 
technology. But many of them use relatively low tech methods to 
carry out their lethal attacks. Are we approaching this duality 
properly from a counterterrorism standpoint? And then how 
should the U.S. Government balance its efforts, prevent these 
very different types of events, given our constrained 
resources?
    Mr. Soufan. Thank you, sir. The jihadists use the same 
methods that we heard about that are used also by the white 
supremacists. However, I think one of the things that the 
jihadis are doing with communicating with each other is 
basically the networks that we heard about. Those guys know 
each other. Sometimes, as we have seen in Sri Lanka, somebody 
went there, probably trained, built a network over there, they 
come back and they conduct an attack.
    I think overall our law enforcement intelligence agencies 
are really doing a phenomenal job in countering this, because 
even when the threat went from radicalization and sometimes 
individuals self-radicalized themselves online, to mobilization 
in a short period of time, we have so many operations where the 
FBI and other local and, you know, State authorities have been 
successful, especially through the joint terrorism task forces, 
in disrupting that.
    So I think the intelligence community and the 
counterterrorism agencies we have are doing a really good job 
in matching the threat, both from a low-tech and a high-tech 
level.
    Mr. Trone. Ms. Ramalingam, I am also on the Foreign Affairs 
Subcommittee on Europe, and we have been troubled by the riots 
of far right nationalism movements in many European countries. 
They have had some electoral success lately and succeeded 
winning seats in more than a few Parliaments, including just 
last week Spain.
    What is the likelihood of a government emerging in Europe 
that is heavily influenced by the far right political movement 
with ties to white nationalist terrorists, and what dangers 
could this pose to the U.S. and our allies?
    Ms. Ramalingam. So important to mention here that my 
organization, Moonshot CVE, works specifically on violent 
movements. So we do not actually work on movements that are 
operating in the political space. That said, these movements do 
not exist in a vacuum.
    They feed off of what they hear in mainstream media. They 
feed off of the current political situation. And there are 
worrying trends in Europe where we are seeing white nationalist 
extremist movements and terrorist organizations starting to 
form political movements. So we do need to be concerned about 
the way that that develops.
    Mr. Trone. Thank you. And I recognize Ranking Member Wilson 
for his witness questions.
    Mr. Wilson. Thank you, Congressman Trone, and thank each of 
you for being here today and raising such important issues.
    Mr. Roggio, you have been following terrorist groups for 
some time now with the Long War Journal. In your opinion, are 
the Iranian-backed groups operating in Iraq, such as AAH and 
the Badr organization terrorist groups, should the U.S. 
designate these groups as--for their terrorist activity?
    Mr. Roggio. Yes, absolutely. These--I would argue most of 
these groups should be--some actually are. I believe Hezbollah 
brigades, and I believe AAH was just added to the list. No? Oh, 
OK. There have been two of them. Hezbollah brigades is one of 
them.
    A lot of these groups have sworn allegiance to Iran's 
supreme leader. They have said they would overthrow the Iraqi 
government if ordered to do so. They said they wish that its 
overall governing organization, the popular mobilization front, 
they want it to operate like the IRGC does inside of Iraq.
    And so these are a very direct threat to U.S. national 
security. They have also--members of these groups or leaders of 
these groups have said that they would attack U.S. interests in 
the Middle East if ordered to do so, including U.S. troops 
inside of Iraq. So they are a direct threat.
    I view these groups as just mini-Hezbollahs that are ready 
to metastasize into a far greater problem than Hezbollah is 
today. And we all know what a great threat Hezbollah is in the 
Middle East right now.
    Mr. Wilson. And, Ms. Ramalingam, with your social media 
background, with the social media platforms, a number of them 
have been successful in removing the ability of terrorist 
organizations to communicate with each other. What more can be 
done?
    Ms. Ramalingam. We would urge technology companies and the 
government to work together with private sector to move beyond 
simply takedowns. There is a huge amount we can do with content 
which, first of all, may not be illegal and may not be liable 
to be taken down, but also to find individuals. If we remove 
their content, that person still exists and they may just 
repost it elsewhere or move on to another platform.
    What we suggest is the use of creative partnerships between 
both the public and the private sector to push strategic 
communications efforts which make use of available technology 
on many of these platforms to try and undermine the ideologies 
of these groups. These are efforts which have really taken 
place in the counter-ISIS space, and we now need to mirror 
those efforts in the white nationalism space.
    Mr. Wilson. Well, your efforts are just so appreciated. 
Thank you very much.
    Ms. Ramalingam. Thank you.
    Mr. Wilson. And, Mr. Soufan, with the recent defeat of the 
physical Caliphate, how should the United States approach the 
ongoing counterterrorism operations in Iraq and Syria to 
prevent the success of counterinsurgency and terrorist sleeper 
cells by ISIS and its sympathizers?
    Mr. Soufan. First of all, sir, we cannot just say we won 
and we defeated them. ISIS probably does not exist physically, 
but ISIS still has the ability to inspire people around the 
world, as we have seen in the recent attacks in Sri Lanka, as 
we have seen yesterday in the videotape that was put out by 
Baghdadi, and that is the very first figure tape I think in 
probably a decade, so--or at least since ISIS--since his speech 
in Mosul.
    ISIS is going through exactly what al-Qaeda went through 
after we swiftly kicked them out of Afghanistan in 2001/2002. 
We thought al-Qaeda is done, the Taliban regime collapsed, and 
suddenly they shift--they changed from being an organization to 
being a message. And that is what ISIS is trying to do today.
    They are trying to compete with al-Qaeda in this local 
conflict that al-Qaeda has been, you know, operating in, all 
the way as you mentioned from the western shores of Africa to 
Southeast Asia.
    Mr. Wilson. And, Mr. Roggio, earlier this month the Trump 
administration designated Iran's Islamic Revolutionary Guard 
Corps, IRGC, in its entirety as a foreign terrorist 
organization. How would you assess the significance of this 
designation, and what impact do you think it will have on the 
IRGC's ability to fund proxy groups?
    Mr. Roggio. Well, first, it should help limit the IRGC from 
operating internationally. Now that the individuals of the 
overall group are designated, they should have a much more 
difficult time traveling to places like Europe and South 
America where they can do fund-raising and conduct other 
activities.
    I think it was necessary. It has been a long time coming. 
The IRG's--one of its suborganizations, Quds Force, has been 
designated for some time. The IRGC acts as a terrorist 
organization. It sponsors the murder of American soldiers in 
the Middle East, and I think the impact of it, as far as 
safety--Iran is already our enemy. Iran has killed 603--at 
least 603 American soldiers inside of Iraq during U.S. time 
there.
    So I am not sure how this designation makes Iran even a 
greater threat to U.S. soldiers stationed in the Middle East.
    Mr. Wilson. And thank you all for being here today very 
much.
    Thank you, Mr. Chairman.
    Mr. Trone. I now recognize Congressman Allred of Texas.
    Mr. Allred. Thank you, Mr. Chairman, and thank you to our 
witnesses for being here today. This is an important topic, and 
I am glad that we are talking about it, and I am hopeful that 
we can handle it in a bipartisan, you know, non-partisan 
manner.
    Mr. Soufan, I wanted to begin with you because in your 
written testimony you note that to truly eradicate the 
terrorist threat we need to understand the geopolitical 
context. And you talk a lot about sectarian conflict, and 
particularly the Saudi/Iranian divide, and cold war to a 
certain extent.
    Obviously, we have a limited influence on Iran. What can we 
do, though, the United States, with our leverage we have over 
Saudi Arabia to influence that conflict or to mitigate it or to 
try and do what we can to steer away from the sectarian 
violence we are seeing?
    Mr. Soufan. Thank you. That is a very good question, and I 
think if you look what is happening in Yemen, what is happening 
in Syria, what we mentioned earlier, ISIS was defeated, or the 
original ISIS, the Islamic State in Iraq, was defeated until 
the war in Syria and until sectarianism became a rallying call, 
and then ISIS found a livelihood again.
    One of the things that we can do is basically work with our 
allies in Saudi Arabia to stop the hate rhetoric that is being 
sponsored through radical Wahhabi madrassas across the Muslim 
world. I mean, the Saudis and some elements in Saudi Arabia use 
this Wahhabi radicalism across the Muslim world in order to 
limit Iranian influence in Muslim communities.
    But, unfortunately, it is--you know, it is firing back on 
everyone, to include the Saudis themselves. So I think it 
starts with the theology, if you want to call it, or with that 
interpretation of the theology that is very foreign to so many 
places around the Muslim world.
    It was very foreign to Sri Lanka until in the last decade 
or so when we started seeing all of these madrassas popping up, 
and people coming from the Gulf with coffers of money, building 
mosques and building madrassas, and educating people on a 
version of Islam that did not exist there before. We have seen 
it in Southeast Asia in the 1990's. It resulted in the Bali 
bombing and other bombings in Jakarta and with what is 
happening in the Philippines with Abu Sayyaf and other groups.
    So it started with a theology and with ideology. And then--
and when you are funding other groups to counter Iranian's 
groups, like Hezbollah, like Asa'ib Ahl Al Haq, like Harakat 
al-Nujaba, like Zaynabiyoun, like Fatimiyoun, like al-Houthis, 
all of these groups around the Middle East that Iran has been 
recruiting, funding, and training.
    When it comes to that, just let's be sure, our allies, that 
the money does not go to groups that are connected to al-Qaeda. 
Yemen is a perfect example. They were giving a lot of aid to 
Abu al-Abbas brigade, which is a Salafi group, and then the 
Humvees ended up with al-Qaeda in the Arabian Peninsula, as we 
have all seen.
    We have seen that in Syria also, and we have seen that in 
Iraq, and we have seen that in so many different places. So I 
appreciate that, you know, they are trying to counter Iranian 
influence, but you cannot be a bull in a china shop while doing 
that.
    Mr. Allred. Yes. Thank you. I agree with what you are 
saying. I see the Arab Spring, as you said, creating new 
challenges, but also perhaps new opportunities.
    And I am interested, if you could, discuss a little bit 
what you have in your testimony about the Arab Spring and some 
of the new challenges that it has created for us and where you 
think the United States can assist or be useful, because to me, 
obviously, the expansion of democracy is our goal, and we want 
to see that, but then we have seen in Egypt and in other 
countries the way that went.
    And so what role can we play, and do you think that we 
should be looking to play to influence that?
    Mr. Soufan. I think the Arab Spring created huge 
opportunities, first for Osama bin Laden and for al-Qaeda, 
because they looked at what was happening in the Middle East at 
the time. And Osama bin Laden wrote his--as we know from the 
documents we recovered from his house, he wrote to his 
commanders and he said, ``Everything I told you about just 
targeting the United States, forget about it, because we 
already defeated the United States. That is why people like 
Mubarak and Qaddafi and other dictators are falling in the 
Middle East. What we need to do is to actually move from phase 
1 to phase 2.''
    He means Management of Savagery, which is al-Qaeda's plan, 
which we know about. Phase 1, you do terrorism in order to 
weaken the order, the States, the international order. Phase 2, 
you create a vacuum, and you will not allow anyone else to fill 
that vacuum. And because whoever--as bin Laden told them before 
the Navy Seals' bullets took him down, whoever is going to fill 
that vacuum is going to be the new agent for the Americans in 
the region.
    Phase 3, you establish the Caliphate. So now what they did 
is you have Syria, with their affiliates in Syria. Then you 
have all the way what they are doing in Yemen. They have the 
Horn of Africa. They have a Sahara region, and imagine when 
their plan is to reconnect all of the things together in a 
Caliphate.
    That is what al-Qaeda is doing, and they have been doing it 
under the radar because everybody has been focusing on ISIS. 
ISIS, exactly as my colleague said, they decided just because 
they hated the leadership of al-Qaeda, personal conflicts that 
goes--history, when they were operating in Iraq--they decided 
to start the Caliphate immediately, not going through the 
phases.
    So that is a huge opportunity for Osama bin Laden and al-
Qaeda, and we are seeing it giving fruits in places like Yemen 
and places like Libya and places like Mali and places like 
Somalia, and so forth.
    Now, from our perspective, unfortunately--and that is 
something that, you know, I really wish we did not do--is we 
have this policy of leading from behind. And I think that 
policy made many different countries in the region feel that 
they can run the show. And we start seeing this competition 
between them and everyone started to figure out their own 
sphere of influence in that area, trying to protect this sphere 
of influence in that area.
    Unfortunately, we did not allow democracy to take roots. 
For example, under the Muslim Brotherhood in Egypt, this is the 
only time since the time of the pharaohs that they actually had 
some kind of a democratic forum.
    Remember, the John Stewart of Egypt making fun of Morsi all 
the time. But immediately after, you know, there was two or 3 
months, and then there was an election in Egypt. They did not 
allow this election to happen because then you will have civil 
society, and definitely the Muslim Brotherhood will lose in the 
ballot box.
    Unfortunately, we did not support democracy. We did not 
support the movement that is happening across the Middle East, 
and we paid greatly for it today. That started with our 
engagement in Libya and Syria, and we continue to have the same 
strategy, unfortunately, around the Middle East, supporting 
dictatorships against the people.
    Mr. Allred. Thank you so much. I yield back.
    Mr. Trone. Thank you. I now recognize Mr. Mast of Florida.
    Mr. Mast. Thank you, Chairman. I appreciate it. Thank you 
all for your testimony today.
    Ms. Ramalingam, I want to go back to something that 
Representative Wilson prompted where you spoke about the need 
for some of those technology companies to crack down. Just as a 
quick followup on that, which technology companies are you 
speaking of specifically?
    Ms. Ramalingam. Thank you, sir. The technologies that I am 
speaking about span Facebook, Google, and all of the main 
social media platforms that are used widely. Those platforms 
have taken action. It is important that since 2017 those 
platforms have taken action against white national extremism in 
different forms.
    What I would love to see from those technology companies is 
more efforts to move beyond simply takedowns and encourage 
partnerships with other private sector entities, organizations 
that are actively trying to undermine these groups 
independently, as well as governments, to form public-private 
partnerships to make this more sustainable and to make the 
fight against white nationalist extremism go beyond simply 
removing content, because if you remove the content the person 
who sits behind it does not disappear.
    Mr. Mast. Thank you. I was just curious which companies you 
were talking about specifically.
    Mr. Soufan, thank you for being here. As we spoke a little 
bit before, I have read some of your work, several times, 
enjoyed it. I want to talk a little bit about what you just 
spoke about, about al-Qaeda stringing together different events 
and activities going on throughout the Middle East and kind of 
juxtapose that to what is going on with Iran and Hezbollah.
    You could always almost say, are they in competition for 
what they want to do throughout the region? In looking back on 
some of your history, right, the Cole bombing, the Khobar 
Towers, 9/11, Bali nightclub, things that you have played a 
role in, you were looking at al-Qaeda before most people had 
heard the term or the name al-Qaeda before.
    So I have a couple of questions in those veins. Number 1, 
are there entities out there that are on your radar that we are 
not thinking about right now? That would be a question for you.
    And then, as we think about the way things have changed 
since 9/11 in terms of human intelligence, geospatial 
intelligence, signal intelligence, cyber intelligence, 
certainly financial intelligence--I mean, that has been one of 
the big changes since 9/11--does that change the way that we go 
out there and address this fight when you look at the long-term 
approach that Iran and Hezbollah has to colonizing the Middle 
East versus those individual attacks that often prompt nation-
building for decades on end?
    Because of this change in intelligence-gathering, should 
there be a change in the way that we go out there and address 
our War on Terror?
    Mr. Soufan. Thank you, sir. As when it comes to Iran, I 
think Iran's policy in the region is very--their strategy I 
think in the region is very sophisticated, and I think we 
will--we will not do ourselves any favors if we underestimate 
that strategy and contain it only within the framework of 
terrorism.
    I think a lot of the groups that work for Iran today are 
groups that are not listed as terrorist organizations. They are 
involved in the political games in places like Iraq, in places 
like Lebanon. They are part of the government. They are part 
of----
    Mr. Mast. Specifically, while we are talking about it, we 
would love to hear the names. I am sure everybody would love to 
hear names.
    Mr. Soufan. Sure. Like, for example, if you want to look 
into Iraq, you will have in places like we mentioned the Badr 
Organization, Asa'ib Ahl Al Haq, Harakat al-Nujaba, all groups 
that work under Qassem Soleimani, under Al-Quds Force, but some 
of them have even members of the Iraqi Parliament, and Iraq is 
considered an ally country for us.
    So they are engaging on many different levels. They have a 
group that we correctly declared as terrorist organizations. So 
they are engaged in trying to get all of these militants that 
they have been working with them in Iraq and other places and 
trying to make them more political, and they are progressively 
succeeding in doing so.
    So this is a very dangerous area. A lot of these other 
groups that Iran work with and we did not declare, we need to 
focus on these organizations, because these organizations, in 
case of any kind of conflict, rest assured they will do 
whatever Al-Quds Force and Qassem Soleimani want them to do.
    So this is something that we have not been focusing on, and 
I think we need to focus on it, and we need to look at it 
within the bigger geopolitical context of what is happening.
    So Iran's involvement is happening on many different 
levels. Security and terrorism is only one of it. They have a 
lot of other things that they are doing in their own form of 
nation-building. They kind of became experts in creating a 
formula that actually corrupt the government from inside with 
building relationships between militants, between the 
government, and between elements in the army.
    And we have seen that in Yemen with what happened with Ali 
Abdullah Saleh and the Houthis. We have seen that in Lebanon 
with Hezbollah, and we have seen that also in Iraq with Hashd 
al-Sha'bi and the Iraqi army and the Iraqi government. So that 
is something that we definitely need to keep in mind in order 
to basically have a forecast of our relationship in the region 
overall.
    As for the other terrorist groups that I have been focusing 
on, I think all of the affiliates of al-Qaeda--al-Qaeda I 
believe is strategically--is still way more dangerous than 
ISIS. And what I think that might--we might see, I think we 
might see members of ISIS rejoining their mother organization 
if Al-Baghdadi is not in the picture.
    We might see new leadership appearing in the Salafi jihadi 
movement that might have the ability to reunify the Salafi 
jihadi movement, especially Hamza bin Laden, bin Laden's son, 
who did not criticize ISIS a lot--at all actually.
    Ayman al-Zawahiri criticizes ISIS. Hamza only talks about 
that ISIS and al-Qaeda are all followers of his dad. I think 
this is something that we have to worry about, and I believe 
that State Department have been paying attention to this, 
because they recently, just like about a month or so ago, 
declared Hamza bin Laden as, you know, they put an award out 
for his capture or any information about him.
    So I think we might start seeing this kind of unification 
between entities of ISIS and between the mother organization 
al-Qaeda. Just 2 or 3 weeks ago, al-Qaeda and Yemen start 
putting audio--videotapes of members of ISIS who came and 
joined al-Qaeda again, and they were making fun of ISIS and the 
Caliphate and the fact that it is--you know, the title is 
expanding and remaining, which is--obviously, it is not 
expanding or remaining in their point of view.
    So a lot of the things, we need to figure out the threat, 
not as it is today, but how it might be tomorrow and what are 
the entities on the Shia side and the Sunni side that might 
create a problem for us and for our national security interests 
in the region tomorrow.
    Mr. Mast. Thank you, Mr. Soufan.
    Mr. Soufan. Thank you.
    Mr. Deutch [presiding]. Thanks. I thank the gentleman from 
Florida. My apologies for my late arrival, and I recognize Mr. 
Malinowski for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    Mr. Soufan, I wanted to ask you to discuss some of the 
similarities between the jihadi Salafi groups like al-Qaeda and 
ISIS and the new threat or growing threat of white extremist 
terrorist groups. I mean, superficially, they are different. 
One claims to fight for a twisted form of Islam; the other 
attacks mosques.
    But would it be fair to say, would you agree that in fact 
in their world view, in their prejudices, in their desire to 
create ethnically pure States, in some of their conspiracy 
theories they are actually quite similar?
    Mr. Soufan. Absolutely. There are glaring similarities 
between them. As you mentioned, sir, the whole issue about 
declaring or fighting for pure States, or pure societies, also 
taking advantage of the social and the cultural and the 
political divisions in the societies in order to make 
themselves more relevant and more mainstream, and the same time 
their use of social media, now we start seeing also 
transnational connections and manifestos that is being written 
by everyone who commits a terrorist attack on the right wing 
side or the--you know, the white supremacist side, which is 
very similar to the martyrdom video or the martyrdom statement 
from the jihadi side.
    We also--I think we start seeing that transnational 
network, there is a travel pattern that is reminding me very 
much so with the travel pattern that we have seen early on, at 
least in the late 1980's and early 1990's with the jihadi 
movement when they used to go to Afghanistan to fight against 
the Soviets in Afghanistan or the Communist regime in 
Afghanistan, and now we see a similar kind of travel pattern in 
going to Ukraine.
    Lots of them are going to East Ukraine, but also some of 
them are going to West Ukraine, so there is a lot of 
overlapping similarities.
    Mr. Malinowski. So it is transnational, and yet it is 
correct to say that we are not sharing intelligence with our 
allies about the white supremacist groups and the way that we 
are or have consistently shared intelligence on ISIS and al-
Qaeda.
    Mr. Soufan. Yes. I think we are very limited in what we can 
do because we do not have them declared as terrorist 
organizations, and this makes it very complicated. I mean, we 
can--I do not think legally we can have the authority--I do not 
think the intelligence agency--let's put it this way----
    Mr. Malinowski. Well, the FBI.
    Mr. Soufan [continuing]. The authorities.
    Mr. Malinowski. Would the FBI have the authority to share 
with its counterparts?
    Mr. Soufan. I think if there is criminal cases that is 
related and connected to other criminal cases that is happening 
in allies' countries, maybe there is an opportunity. But I do 
not think we do it on the--I know we do not do it on the same 
level that we do it with the Salafi jihadis and with other type 
of Islamic terrorism.
    Mr. Malinowski. Understood. Well, the threat is obviously 
growing. By any measure, the number of attacks of all kinds by 
the white extremist groups has been increasing. Just one 
statistic. There was a 60 percent--about a 60 percent increase 
in anti-Semitic attacks in the United States just between 2016 
and 2017.
    Is this because suddenly in 1 year there were 60 percent 
more anti-Semites in the United States? Or is there something 
in the atmosphere which is emboldening these people? And I 
would maybe pose this question to you, Ms. Ramalingam.
    Ms. Ramalingam. Thank you. Yes. We have seen evidence that 
the threat is growing, not just here in the United States but 
globally, and there are a number of factors which will play 
into that, one of which is reporting is actually increasing, 
reporting of these sorts of incidences, which will play into 
that growth.
    But even when it comes to terrorism attacks beyond just 
simply hate crime perpetrated by individuals connected to these 
movements, we see on a global scale, the Global Terrorism Index 
has cited that in the 13 years prior to 2014 there were 20 
attacks that took place. In the 3 years prior to 2017, there 
were 61 attacks that took place. So that is not just about 
increased reporting. That is about increased capacity of 
violence from these groups.
    Now, the nature of these movements has changed over the 
past several decades. They have taken an increasingly 
decentralized approach to organizing. It is no longer simply 
about fixed terrorist organizations or terrorist cells that are 
developing.
    We are looking at loosely affiliated networks of 
individuals who choose to carry out acts of violence 
independently. That poses greater challenges, both for law 
enforcement and intelligence agencies, to actually identify and 
disrupt those individuals before they carry out their attack, 
and that is playing into that trend.
    Mr. Malinowski. Is it not also a factor that in the past 
virtually every authoritative voice in our society would have 
been telling these people that they are alone in their 
delusions, but now some of their ideas are being echoed by 
politicians, by leaders in our society, the idea of a, you 
know, deep State that is conspiring against the people, the 
idea of immigrants invading us from every single side? I mean, 
they are hearing things from high up that reflect some of their 
own delusions and conspiracy theories. Do you think that that 
is a factor?
    Ms. Ramalingam. As I mentioned, these movements do not 
operate in a vacuum. The words and actions of political leaders 
do matter. What the U.S. can do right now to indicate that it 
is taking a stance against white nationalist terrorism is add 
white nationalist terrorist perpetrators to the list of 
specially designated global terrorists.
    That will indicate not only to potential perpetrators but 
also to wider communities that this issue is being taken as 
seriously as it should be.
    Mr. Malinowski. Thank you. I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Thanks to the witnesses for being here. Again, my 
apologies. I just want to start by saying I just got back on a 
trip--from a trip with Chairman Albio Sires to Colombia where 
we had a meeting with--a good meeting with President Duque, 
went to Cucuta, saw the humanitarian crisis at the border and 
the suffering of the Venezuelan people wrought by the Maduro 
regime.
    We talked to families who travel hours--hours with their 
children to give them one meal, to be able to give them one 
meal per day. And we saw the humanitarian resources from the 
United States, from the United Nations, from other nations 
around the world, that are sitting in warehouses across a 
bridge that has been blocked by Maduro because he has chosen to 
prevent the suffering that he has wrought from being alleviated 
in his country and by not allowing those resources to be 
delivered.
    As we walked across the other bridge in Cucata, Venezuelans 
were coming and going throughout the day to try to get a meal, 
and they shouted out to us pleading for the support of the 
United States.
    So I only mention that as we watch closely what happens in 
Venezuela now as the Venezuelan people try to restore democracy 
in their country, as we told President Duque, we offer support 
to the Colombians, the Lima Group, and nations around the world 
as Interim President Guaido works to restore democracy in the 
Nation of Venezuela.
    I want to turn back to this hearing and the purpose of your 
being here. It has been 18 years since the terrorist--almost 18 
years since the terrorist attacks of 9/11, and the focus of 
U.S. foreign policy shifting toward greater power competition. 
But the transition occurs as the U.S. still faces these threats 
from a disparate array of jihadist, Iranian-sponsored, and 
white nationalist terror groups.
    The recent defeat of ISIS's territorial Caliphate is a 
noteworthy milestone, but the ideology, as you have spoken 
about throughout this hearing, remains active around the world. 
It is demonstrated by two events that occurred yesterday, 
first, the revelations that at one--that one of the suicide 
bombers in the horrific Easter attacks in Sri Lanka trained 
with ISIS in Syria, and that as many as four of the terrorists 
involved in the attacks may have traveled to Turkey, Syria, and 
Iraq, where they have--it is believed they have contacted ISIS 
operatives--had contacted ISIS operatives.
    Second, ISIS released a video showing Abu Bakr al-Baghdadi. 
The video is the first appearance in nearly 5 years, as he 
urged his followers to fight on, despite the recent losses by 
the group. And both events demonstrate that while ISIS's 
physical Caliphate is destroyed, they continue to have a 
network of supporters around the world who are trained by ISIS 
operatives and loyal to the organization's cause.
    Most importantly, these individuals seek to launch attacks 
against individual--innocent civilians. Furthermore, the 
challenge of Iranian-backed groups persist, threatening U.S. 
interest in military personnel as well as our allies and 
partners in the Middle East and around the world.
    The transnational threat posed by white nationals terrorism 
is clearly growing, as exemplified by the horrific attacks in 
Christchurch, at the Tree of Life synagogue in Pittsburgh, and 
just days ago at the Chabad of Poway, just north of San Diego.
    Understanding these motivations and threats will inform 
future subcommittee hearings and help members consider 
legislation to improve our U.S. counterterrorism policy, and a 
greater comprehension of these threats will help fulfill our 
duty to help keep the American people safe. That is the reason 
that we held this hearing.
    And my greatest regret in being late is that the reports I 
have gotten from all of my colleagues is that all of our 
witnesses have been terrific, and we are grateful to you.
    I just had two questions. Ms. Ramalingam, in your written 
testimony, you claim that development of new technology is 
required to help process and analyze data to better understand 
and keep pace with the evolving tactics of white nationalist 
extremist individuals and groups online.
    Given Mr. Soufan's acknowledgment in his exchange with Mr. 
Malinowski about the shortfall in cooperation among nations of 
the world in addressing the white nationalist threat, what type 
of technology would support these efforts? Would this 
technology help assist nations to cooperate with one another to 
combat it? And what can Congress do to help catalyze those 
efforts?
    Ms. Ramalingam. Thank you, Chairman. We absolutely do need 
new technology to fight this particular threat. As these 
movements are shifting to decentralized networks of individuals 
on the dark corners of the internet, we need technology which 
can automate the identification process, automate geolocation 
processes, automate risk assessments of those individuals on 
the basis of the digital footprint that they are leaving us, 
indicating that they are getting involved.
    What my company has done over the past few years is we have 
invested heavily in the development of this sort of technology. 
It relies on us building data bases of risk indicators, well 
into the millions of text, that are being shared by these 
groups, phraseology that they use, propaganda that they share, 
memes, photos, everything we can use online to identify them.
    What we need to do is facilitate more public-private 
partnerships to advance this technology, bring in the tech 
community so that we are taking advantage of advancements in 
artificial intelligence technology, to bring this into the 
fight. And what I would also suggest is that we move not only 
toward removal of that content but how we can take advantage of 
just how brazen these groups are in the online space to try and 
find them before they perpetrate attacks.
    Mr. Deutch. Right. Just give me an example of that.
    Ms. Ramalingam. An example is Brenton Tarrant. In the 
moments before he carried out his attack, including 2 days 
before his attack, had started posting not only on Twitter, 
including images of his weapons with references to his heroes, 
of terrorists across the world, who had previously carried out 
similar attacks. He posted that on Twitter. In the moments 
before his attack, he was posting on 8chan that he was 
intending to carry out his attack.
    There were a slew of posts which followed from individuals 
around the world supporting him, encouraging him, and 
congratulating him on carrying out those acts of violence. And 
then in the weeks that followed, my organization has tracked 
individuals across the globe that have sought to consume 
propaganda that came directly from Brenton Tarrant as well as 
his affiliates across the globe.
    Technology can help us identify those individuals and to 
interact with them.
    Mr. Deutch. What happens with that information now? What 
happens when someone Tweets something like that? What happens 
when they make those postings on 8chan?
    Ms. Ramalingam. Well, technology companies are getting 
better at identifying this content, but they are not there yet. 
And the greatest example of that was just how efficiently 
Brenton Tarrant was able to live stream his attack, the entire 
massacre.
    Facebook took down millions of copies of that video in the 
24 hours that followed the attack, but we are still not there, 
obviously, to identify that content quickly. But there are 
movements to make this happen. We just need more of it.
    Mr. Deutch. And just one last point on this. So for all of 
the people who have posted their support of what he had done, 
you are suggesting that using advanced technology to identify 
not just someone who praises the horrific terror act that he 
carried out, but likely there are other indicators, too, that 
should be--that are out there and that could readily be 
gathered using technology.
    Ms. Ramalingam. Yes. Absolutely. A lot of this work needs 
to take place in the preventative space. This is the pre-
criminal space before somebody actually carries out an attack. 
If they are indicating affiliation or glorification of the 
violence, we can automate the identification process for that 
individual and try and interact with them to try and get them 
out.
    Mr. Deutch. All right. Thanks. And, Mr. Wilson, if I may 
ask one more. Thanks.
    Mr. Wilson. Hey, we are glad to have you back.
    Mr. Deutch. OK. Thank you very much.
    Mr. Soufan, in 2008, Britain designated Hezbollah's 
military wing as a terror organization, which diverged from the 
position--the official position of the EU. It was not until 
mid-July 2013, so 5 years later, that the EU adopted a similar 
position, and only following claims of the link between 
Hezbollah and the Burgas, Bulgaria, bus attack.
    British government recently announced the blacklisting of 
Hezbollah's political wing, thereby designating the entire 
organization in its entirety as a terrorist organization, 
thereby essentially treating a terrorist organization as a 
terrorist organization.
    What impact will this have on Hezbollah? And how effective 
will the designation--their designation be if the EU does not 
follow suit?
    And then, I will also just put out there now for you to add 
when you are finished, go ahead and comment on the response 
that people point to the government of Lebanon and say, ``We 
can't do it because of Hezbollah's position in that 
government.''
    Mr. Soufan. Well, this is what the EU and this is what the 
British claimed for a long period of time because Hezbollah is 
member of the Parliament, member of the government, and they 
are engaging with Lebanon on a government level, and there is 
U.N. troops on--you know, some of them are Europeans on the 
border. And if you start dealing with all of the entities of 
Hezbollah's terrorist organization, then it creates legal 
complications for them to deal with. This is their excuse.
    But, you know, Hezbollah is Hezbollah, and the political 
leadership of Hezbollah and the military leadership at 
Hezbollah both fall under the leader of Hezbollah, Nasrallah, 
who is the leader of Hezbollah.
    So I think this is one of the things that we have seen the 
UK finally recognizing. As you mentioned, a terrorist 
organization is a terrorist organization, but I think it will 
be probably more complicated for the EU to do that because of 
actually what you correctly mentioned--their engagement with 
the government of Lebanon.
    I think eventually it needs to be done, because if you 
consider that organization as a terrorist organization, you 
cannot consider the people who are defending and speaking 
politically for the organization to be individuals who are not 
connected to a terrorist organization. I think the logic does 
not flow here with this.
    Mr. Deutch. Well, and just, finally, the argument that 
there is a legal complication that may exist when you do that, 
is there a strict line between the two separate entities 
legally that prevents anyone who is in the--what the EU would 
refer to as the humanitarian wing, the political wing of 
Hezbollah, and the terrorist wing, is there--what is the legal 
distinction there? As they worry about legal complications, 
what are the legal distinctions between the two?
    Mr. Soufan. Absolutely not. You know, we do not know of any 
distinctions between both. Hezbollah is an organization that is 
very popular among big segments of the society. That is why 
they are voted into the Parliament. And I think in order to--
for some countries in the West to deal with that situation, 
they figure out, OK, you know, there is a big division--
difference between the political element and the military 
element.
    But I think both of them are under the leadership of the 
same individual, both of them under the leadership of the same, 
you know, command, politically and militarily. And when there 
are elections in Lebanon, the person who put out the agenda of 
Hezbollah and put out who are the candidates of Hezbollah is 
actually the head of the military of Hezbollah also, who is 
Hassan Nasrallah, the head of both the military and--so there 
is no difference.
    This is some, you know, lawyers coming up with a way of how 
to deal with an organization when it is listed as a terrorist 
organization. And we came up earlier today, I think with 
Congressman Mast, we were talking about different groups that 
us in the United States, we have a problem with that.
    We did not declare them as terrorist organizations in Iraq, 
even though we know that they operate under al-Quds Force, and 
we know that they are involved in the war in Syria, and we know 
that they are trained and work closely with Hezbollah. And we 
did not declare them as terrorist organizations because they 
have people in the Parliament, in Iraq, because they are part 
of the political process in Iraq, too.
    Mr. Deutch. Finally, what will the designation--what will 
the designation mean? If the EU followed suit and acknowledged 
that Hezbollah is a terrorist organization, what would that 
mean for Hezbollah financing? What would that mean for 
Hezbollah terror operations?
    Mr. Soufan. Honestly, I do not know if Hezbollah have money 
in the EU or have money in Europe. They get all their money 
from Iran and from different operations and criminal activities 
in Latin America and other places.
    But I think one of the things that it--while it can limit 
the travel of so many members and leaders of Hezbollah, who are 
actually traveling sometimes to Europe as part of the Lebanese 
government or part of being members of the Lebanese Parliament, 
it will limit the engagement between European political leaders 
and between Hezbollah.
    For example, many of the negotiations for hostages, you 
know, between Israel and between Hezbollah went through Germany 
because the Germans were involved in negotiating with the group 
because they did not consider it as a terrorist organization at 
the time.
    So it will definitely impact them, and it might impact 
their fund-raising capabilities in Europe. But I am not 
familiar that they are doing it publicly; they are probably 
doing it covertly.
    Mr. Deutch. OK. I appreciate it. Again, my apologies for my 
delay, but I am most grateful for the three of you, and Mr. 
Wilson, my ranking member.
    Thanks to the witnesses, and to all of our members who have 
been here throughout the day. Thank you for your excellent 
testimony.
    Members of the subcommittee may have some additional 
questions. So we would just ask that the witnesses respond to 
their questions in writing, and my request to our colleagues is 
that any witness questions for the hearing be submitted to the 
subcommittee clerk within 5 business days.
    And with that, and without objection, this subcommittee 
hearing is adjourned. Thank you.
    [Whereupon, at 3:36 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
